                                                                Issue Date
                                                                         June 6, 2012
                                                                Audit Report Number
                                                                         2012-AT-1013




TO:        Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU

           //signed//
FROM:      James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT: Universal American Mortgage Company, Miami, FL, Branch, Did Not Comply
          With HUD Regulations When Originating and Underwriting FHA Loans and
          Implementing Its Quality Control Program

                                  HIGHLIGHTS

 What We Audited and Why

            We audited Universal American Mortgage, Co. LLC, located in Miami, FL, in
            accordance with our annual audit plan. Universal was selected for review because
            its default rate of 3.8 percent was higher than the Miami area default rate of 1.9
            percent. Our objectives were to determine whether the lender followed U.S.
            Department of Housing and Urban Development (HUD) requirements when
            originating and underwriting loans and implementing its quality control program.
            In addition, we wanted to determine whether the loans reviewed contained
            improper restrictive covenants.

 What We Found


            Universal did not follow HUD requirements when it originated and underwrote
            three of the six loans reviewed. Specifically, it used inaccurate and unsupported
            income, credit, and asset information to qualify borrowers for three Federal
            Housing Administration (FHA) loans. This condition occurred because the lender
            did not exercise due care when it underwrote the loans. As a result, Universal
            increased the risk to the FHA insurance fund by $442,703.
           In addition, the lender did not fully comply with HUD requirements when
           implementing its quality control program. It did not (1) meet the requirements for
           credit reverification and (2) report a deficiency found in its quality control review.
           This condition occurred because Universal did not follow its controls to ensure
           compliance with HUD requirements. As a result, it increased the risk to the
           insurance fund because it did not have assurance regarding the accuracy, validity,
           and completeness of its loan origination and underwriting operations. We did not
           find any improper restrictive covenants placed on the properties reviewed.

What We Recommend
           We recommend that the Deputy Assistant Secretary for Single Family Housing
           require the lender to (1) indemnify HUD for the three ineligible FHA-insured
           loans with an estimated potential loss of $442,703, (2) reimburse the unallowable
           tax service fee charged to three borrowers, and (3) fully implement its quality
           control plan and follow up in 9 months to ensure that its quality control reviews
           are conducted in accordance with HUD regulations.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the discussion draft report to Universal on April 24, 2012, and held
           the exit conference with lender officials on May 10, 2012. The lender provided
           written comments on May 9, 2012. It generally disagreed with finding 1;
           however, it agreed with finding 2. During the exit conference, the lender
           provided the indemnification agreement it executed with HUD pertaining to FHA
           case number 095-1727113, discussed in finding 1 and documentation showing it
           reported FHA case number 095-2007408 to HUD, as recommended in finding 2.

           The complete text of the Universal’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                             2
                            TABLE OF CONTENTS

Background and Objectives                                                           4

Results of Audit
        Finding 1: Universal Did Not Follow HUD Requirements When Originating and   5
        Underwriting FHA Loans
        Finding 2: Universal Did Not Fully Comply With HUD Requirements When        9
        Implementing Its Quality Control Program

Scope and Methodology                                                               12

Internal Controls                                                                   14

Appendixes
   A.   Schedule of Funds To Be Put to Better Use                                   16
   B.   Auditee Comments and OIG’s Evaluation                                       17
   C.   Schedule of Indemnification and Repayment                                   32
   D.   Loan Details for the Three Purchase Loans                                   33




                                            3
                                 BACKGROUND AND OBJECTIVES

In 1934, Congress created the Federal Housing Administration (FHA), which provides mortgage
insurance on loans made by FHA-approved lenders. Since its inception, it has insured more than
34 million properties, making FHA the largest insurer of mortgages in the world. Many lenders
participate in the FHA mortgage insurance program since it provides lenders with protection
against losses as the result of homeowners’ defaulting on their mortgage loans. As a result, the
lenders bear less risk because FHA will pay a claim to the lender in the event of a homeowner’s
default.

In 1965, FHA became part of the U.S. Department of Housing and Urban Development’s (HUD)
Office of Housing. Under HUD’s FHA direct endorsement program, approved lenders may
underwrite and close mortgage loans without prior FHA review or approval. Universal
American Mortgage, LLC is a nonsupervised direct endorsement1 lender that was approved on
January 1, 1960, to originate FHA loans. Universal originates loans under the lender insurance
program, which enables high-performing lenders to insure FHA mortgage loans without a
preendorsement review by HUD.

Universal American Mortgage Company, LLC, Universal American Mortgage Company of
California, North American Title Company, and Eagle Home Mortgage of California are all
affiliates of Lennar Financial Services, LLC. Lennar Financial Services is a wholly owned
subsidiary of Lennar Corporation, a national residential homebuilder. Universal’s headquarters
is located at 700 N.W. 107th Avenue, Miami, FL. It has 36 branches in 15 States across the
Nation. Universal provides mortgage financing services primarily to purchasers of Lennar
Corporation homes.

According to HUD’s Neighborhood Watch Early Warning System, from the amortization period
of October 2009 through September 2011, Universal underwrote 741 loans in the HUD Miami
office jurisdiction. As of September 30, 2011, 28 of the 741 loans (or 3.78 percent) were in
default with mortgage amounts totaling more than $5.2 million.

Our audit objectives were to determine whether the lender followed HUD requirements when (1)
originating and underwriting loans and (2) implementing its quality control program. In
addition, we wanted to determine whether the loans reviewed contained restrictive covenants.2




1
A nonsupervised lender is a lending institution which has as its principal activity the lending or investing of funds in real estate mortgages. It
may submit applications for mortgage insurance and may originate, purchase, hold, or service insured loans or sell mortgages.

2
  In September 2011, HUD’s Office of Inspector General (OIG) in Region 9 issued a report on the Universal American Mortgage, Las Vegas,
NV, branch and found that the lender did not follow HUD requirements in the origination or quality control review of FHA-insured loans.
Specifically, it found that the 15 loans reviewed contained inappropriate restrictive covenants that affected the insurability of the loan. Thus, we
reviewed whether the loans we selected from the Miami, FL, branch office contained restrictive covenants.



                                                                          4
                                 RESULTS OF AUDIT

Finding 1: Universal Did Not Follow HUD Requirements When
Originating and Underwriting FHA Loans
Universal did not follow HUD requirements when originating and underwriting three of the six
loans reviewed. Specifically, it used inaccurate and unsupported income, credit, and asset
information to qualify borrowers for three FHA loans. This condition occurred because the
lender did not exercise due care when it underwrote the loans. As a result, it increased the risk to
the FHA insurance fund by $442,703.



 Three Loans Contained
 Underwriting Deficiencies


               Universal did not follow HUD requirements when originating and underwriting
               FHA loans. Specifically, our review of six loan files identified three loans with
               underwriting deficiencies that included unsupported income, credit or debt, and asset
               information. All FHA lenders must follow all applicable statutes, regulations, and
               HUD’s written instructions, including program handbooks and mortgagee letters.
               Specifically, lenders must follow HUD Handbook 4155.1, “Mortgagee Credit
               Analysis for Mortgagee Insurance on One- to Four-Unit Mortgage Loans,” when
               using automated underwriting systems or manually underwriting FHA loans. The
               lender is responsible for eliciting a complete picture of the borrower’s financial
               situation, source of funds for the transaction, and intended use of the property. Its
               decision to approve the loan must be documented, supported, and verifiable.

               The table below shows the summary of significant deficiencies identified with the
               three loans. The lender also found some of these deficiencies that it self-reported
               to HUD. All deficiencies are further discussed in appendix D.


                       FHA case      Unsupported       Inadequate        Unsupported
                        number         income         credit analysis   source of funds
                      095-1003547                            x                 x
                      095-1873522                            x                 x
                      095-1727113          x                 x                 x
                         Total             1                 3                 3

               The following three sections discuss some examples of the originating and
               underwriting deficiencies.




                                                 5
          On May 10, 2012, the lender provided the indemnification agreement it executed
          with HUD pertaining to loan 095-1727113. As a result, the lender has taken
          corrective action to address the recommendation for this loan. We reduced the
          amount of funds to be put to better use to account for the executed indemnification
          agreement.


Loans Contained Unexplained
Mortgage Interest Deductions

          The lender did not consider or clarify in its credit analysis a mortgage interest
          deduction in the tax returns for all three loans reviewed. HUD Handbook 4155.1
          1.A 4.c requires the lender to ask sufficient questions to elicit a complete picture
          of the borrower’s financial situation, and all information must be verified and
          documented. Obtaining an explanation was important because it may have
          impacted the approval of the loan. For example, in FHA case number 095-
          1873522, the cosigner claimed a mortgage interest deduction on his tax returns,
          which suggested that the cosigner had a mortgage loan that the lender should have
          considered when approving the loan. In addition, the loan file contained a letter
          indicating that the cosigner was going to refinance his property but did not. The
          lender did not consider this liability when underwriting the loan.

          The lender explained that this liability was not included since the cosigner’s credit
          report did not reflect an outstanding mortgage. However, the credit report did not
          include the cosigner’s spouse. As a result, the credit report may not have
          reflected all of the financial responsibilities that the cosigner may have had with
          his spouse. The lender should have inquired further about this mortgage
          deduction to obtain a complete picture of the cosigner’s financial situation.
          Mortgagee Letter 2004-47, FHA TOTAL Mortgage Scorecard User Guide, states
          that if a mortgage debt does not appear on the credit report, the lender should
          obtain the most recent 12-month history and include the payment in the qualifying
          ratios. According to property records, the cosigner and his spouse owned an
          additional property. Therefore, this financial obligation may have affected the
          cosigner’s ability to make payments and should have been considered when
          qualifying the borrowers for the FHA loan.

There Was an Unsupported
Earnest Money Deposit

          The lender did not determine the source of funds for an earnest money deposit.
          HUD Handbook 4155.1, paragraph 5.B.2.a, states that the lender must verify with
          documentation the deposit amount and source of funds if the amount of the
          earnest money deposit appears excessive based on the borrower’s history of
          accumulating savings. For instance, in FHA case number 095-1727113, the
          HUD-1 settlement statement showed an earnest money deposit of $3,000, which



                                            6
             the coborrower provided. Based on a bank slip, on May 13, 2010, the coborrower
             made a cash deposit of $3,000 to his bank account, which had a beginning balance
             of $114, and on the same day, the coborrower withdrew $3,000 for the earnest
             money deposit. According to the coborrower’s bank statements, from January 1
             through April 30, 2010, the average balance in the account was approximately
             $1,049. However, the lender did not determine the source of funds for the earnest
             money deposit, which appeared excessive based on the coborrower’s bank
             statements. In addition, the borrower’s bank statements for the period April 13
             through June 10, 2010, did not support that the funds came from the borrower. As
             a result, the lender should have clarified the source of these funds to ensure that
             they came from an acceptable source.


 Universal Charged an
 Unallowable Fee

             The lender charged three borrowers an unallowable tax service fee. HUD
             Handbook 4155.1, paragraph 5.A.2.a, states that borrowers may not pay a tax
             service fee. Two of the three borrowers whose loans contained underwriting
             deficiencies were charged this fee. In FHA case number 095-1873522, the lender
             said that the seller-paid closing costs included the tax service fee. However, the
             tax service fee was not included in the seller-paid closing costs; it was paid by the
             borrower. In addition to the two loans, one other loan also contained this
             unallowable fee; see the table below.


                                              Tax service fee on HUD-1
                        FHA case number         settlement statement
                          095-1727113                    $73
                          095-1873522                    $85
                          095-1957849                    $85
                             Total                      $243


A Lack of Due Diligence
Increased the Risk of Loss to the
FHA Insurance Fund

             Universal did not exercise due care when underwriting three loans for FHA
             insurance to ensure compliance with HUD requirements. Universal indicated that
             since it was understaffed, some of the deficiencies might have gone unnoticed.
             However, for two of the three questioned FHA loans, the lender identified some of
             the same deficiencies in its quality control review. As a result, the lender self-
             reported these deficiencies to HUD and took preventive measures to ensure that
             these deficiencies would not recur, see appendix D. As a direct endorsement lender,
             Universal was allowed to endorse a mortgage loan for FHA insurance without a



                                               7
             detailed technical underwriting review by HUD. However, in approving loans for
             FHA insurance, the lender certified that the mortgage loan documents were
             personally reviewed and the mortgage was found to be eligible for FHA insurance.


Conclusion


             Universal did not follow HUD requirements when originating and underwriting
             three FHA loans. This condition occurred because Universal did not exercise due
             care to ensure that loans were originated and underwritten in accordance with HUD
             requirements. On May 10, 2012, the lender indicated that it executed an
             indemnification agreement with HUD pertaining to FHA case number 095-172113
             for its self-reported deficiencies which includes the deficiencies identified in this
             report. Therefore, we reduced the amount of funds to be put to better use to account
             for the executed indemnification agreement. For the remaining loans, the lender
             placed the FHA insurance fund at risk of loss when it did not follow HUD’s FHA
             regulations in the underwriting of two loans. The two loans had a total unpaid
             mortgage balance of $431,479 with an estimated loss to HUD of $284,776, see
             appendix C.

 Recommendations

             We recommend that the Deputy Assistant Secretary for Single Family Housing
             require the lender to

             1A. Indemnify HUD against any future losses on the two loans with underwriting
                 deficiencies. The projected loss to HUD is $284,776 based on HUD’s loss
                 severity rate of 66 percent of the unpaid balance of $431,479.

             1B. Reimburse the unallowable tax service fees charged to borrowers for FHA
                 case numbers 095-1727113, 095-1873522, and 095-1957849.

             1C. Fully implement and enforce its policies and procedures to ensure that loans
                 comply with HUD requirements and underwriting decisions are properly
                 supported.




                                               8
Finding 2: Universal Did Not Fully Comply With HUD Requirements
When Implementing Its Quality Control Program
Universal did not fully comply with HUD requirements when implementing its quality control
program. Specifically, the lender did not (1) meet the requirements for credit reverification and
(2) report a deficiency found in its quality control review. These conditions occurred because
Universal did not follow its controls to ensure compliance with HUD requirements. As a result,
it increased the risk to the FHA insurance fund because it did not have assurance regarding the
accuracy, validity, and completeness of its loan origination and underwriting operations.


As a condition of receiving and maintaining FHA approval, Universal must implement and
continuously have in place a quality control program. HUD Handbook 4060.1, REV-2,
paragraph 7-2, states that lenders must design their quality control program to meet the basic
goals of (1) ensuring compliance with FHA’s and the lender’s origination and servicing
requirements; (2) protecting FHA and the lender from unacceptable risk; (3) guarding against
errors, omissions, and fraud; and (4) ensuring swift and appropriate corrective action. The
lender’s quality control program contained deficiencies in its quality control reviews.

 Universal Did Not Complete the
 Required Reverifications

               Universal hired an external contractor to perform its quality control reviews during
               our audit period. The lender stated that its contractor conducted monthly random
               quality control reviews. Of the reviews conducted by its contractor, Universal
               reviewed 10 percent for compliance.
               Universal conducted eight quality control reviews that were incomplete and did not
               meet HUD requirements. HUD Handbook 4060.1, REV-2, paragraph 7-6 (e),
               requires the lender to reverify employment and asset information of the borrower.
               We selected 16 quality control reviews, of which eight had missing reverifications.
               The eight reviews had missing reverifications of employment, assets, and a gift, as
               shown in the table below.

               FHA case number                         Incomplete reverifications
                                        Employment                Assets                  Gift
                  095-1608897               X
                  095-1634930                                        X
                  095-1848143                                        X
                  095-1880733                 X
                  095-1874330                 X                      X
                  095-2023192                                        X
                  095-1983487                                        X                     X
                  095-2189036                                        X
                     Total                    3                      6                     1



                                                  9
             According to the lender, the deficiency occurred because of an oversight by its
             quality control contractor. The lender indicated that it was aware of this problem
             and was working with the contractor to address the issue. By not performing
             complete quality control reviews, the lender unnecessarily put HUD at risk for
             errors, omissions, and fraud.


Universal Did Not Report a
Deficiency to HUD


             Universal did not report to HUD a significant deficiency from its quality control
             review. One of the sixteen loans reviewed was rated nonquality by Universal’s
             quality control contractor. The nonquality rating is provided to a loan if it fails to
             meet investor, agency, or regulatory guidelines to such degree that it affects the
             expected performance. FHA case number 095-2007408 was rated nonquality
             because the field review appraiser estimated the property value to be $48,500
             lower than the initial appraiser’s valuation.

             Universal took corrective measures without notifying HUD. Mortgagee Letter
             2011-2 requires management to report to HUD all corrective actions taken in
             response to instances of serious material deficiencies. The lender indicated that
             based on the appraisal rebuttal and reviews of additional loans appraised by the
             initial appraiser, it did not consider this isolated incident to constitute a pattern of
             serious deficiencies. Therefore, the lender did not notify HUD of this deficiency
             as required. Although the lender took corrective measures, it should have
             reported this deficiency to HUD, along with the corrective actions taken.

             Based on our recommendation, the lender provided a print out from neighborhood
             watch showing it reported FHA case number 095-2007408 on May 10, 2012 .
             Therefore, the lender has taken corrective actions to address recommendation 2B.


Conclusion


             Universal did not follow HUD requirements when implementing its quality control
             program. These conditions occurred because Universal did not follow its controls
             to ensure compliance with HUD requirements. By not having an effective quality
             control program, the lender increased HUD’s risk for errors, omissions, and fraud.
             As a result, HUD had no assurance regarding the accuracy, validity, and
             completeness of the lender’s underwriting operations.




                                                10
Recommendations


          We recommend that the Deputy Assistant Secretary for Single Family Housing
          require the lender to

          2A. Fully implement its quality control plan and follow up in 9 months to ensure
              that its quality control reviews are conducted in accordance with HUD
              requirements.

          2B. Report the deficiency associated with FHA case number 095-2007408 to
              HUD via Neighborhood Watch.




                                          11
                                    SCOPE AND METHODOLOGY

Our audit objectives were to determine whether the lender followed HUD requirements when (1)
originating and underwriting loans and (2) implementing its quality control program. In
addition, we wanted to determine whether the loans reviewed contained restrictive covenants.

To accomplish the audit objectives, we

          Reviewed applicable HUD handbooks and mortgagee letters;
          Reviewed Universal’s policies and procedures for processing and underwriting loans;
          Reviewed Universal’s FHA-insured loan files;
          Verified the accuracy of the information from the loan files with the borrowers and
          borrowers’ employers;
          Reviewed Universal’s written quality control plan;
          Reviewed Universal’s post-quality control reviews; and
          Interviewed Universal’s employees, management, and external quality control contractor.

We accessed Neighborhood Watch to obtain information about the lender and its loans.
Universal underwrote 741 loans within the jurisdiction of the Miami HUD office between the
amortization dates of October 1 and September 30, 2011. As of September 30, 2011, 28 loans
with mortgage amounts totaling $5.2 million were in default. Of the 28 defaulted loans, we
selected 5 loans to review based on various risk factors, including loans that defaulted with 6 or
fewer payments, loans with gift donors, and loans with high mortgage amounts. The original
mortgages of the five loans totaled approximately $1 million, and the unpaid principal balances
totaled $998,064. The results of our review apply only to the loans reviewed and cannot be
projected to the universe of the loans.

One of the loans that contained underwriting deficiencies involved an employee of the Lennar
Corporation. Universal is a subsidiary of Lennar. As a result, we expanded our review to
include loans involving employees and associates of the Lennar Corporation or its subsidiaries.
Of the 28 defaulted loans, we identified 1 additional loan involving an employee of the lender.
The original mortgage amount of this loan totaled $235,551 with an unpaid principal balance of
$230,121.

Universal’s external post-quality control contractor reviewed 85 loans from the Miami branch
office for our scope period of October 1, 2009, through September 30, 2011. Of these 85 loans
we selected 16 loans. We selected loans reviewed by the quality control vendor for the months
of March 2010, September 2010, March 2011, and September 2011. We reviewed these 16
loans for review of timeliness, desk appraisal, and credit document reverification, as well as
corrective actions taken on material findings cited in the quality control review reports. In
addition, we determined whether Universal complied with the frequency and early payment
default requirements for our scope period and the sample size and field appraisal in 2010.3 The

3
 The lender’s fiscal year is from December through November, which covers 1 full year (2010) of our scope period of October 1, 2009, through
September 30, 2011. Therefore, to test the sample size and field appraisals, we focused on the lender’s 2010 fiscal year.



                                                                     12
results of our review apply only to the quality control reports reviewed and cannot be projected
to the universe of reports.

We used data maintained in Neighborhood Watch to obtain background information and the
universe of loans and their status. This system is designed to highlight exceptions so that
potential problems are readily identifiable. In particular, the system gives the ability to identify
and analyze patterns, by geographic area or originating lender, in loans which became delinquent
during the first 2 years. We did not rely on the data as a basis for our conclusion.

During the course of the audit, we clarified HUD regulations and discussed potential issues with
the Atlanta Homeownership Center’s Quality Assurance Division. We also discussed the
findings with the lender.

We classified $284,776 as funds to be put to better use. This is 66 percent of the total unpaid
principal balances of $431,479 for the two loans as of February 29, 2012. We used 66 percent
because it has been determined that upon the sale of the mortgaged properties, FHA’s average
loss was about 66 percent of the unpaid principal balance.

Our review generally covered the period October 2009 through September 2011 and was
extended as necessary during the audit. Our review was conducted from November 2011
through March 2012 at Universal Mortgage Company, LLC, located at 700 N.W. 107th Avenue,
Miami, FL, and at various other locations in the Miami-Dade area to conduct interviews with the
borrowers.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                13
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objectives:

                  Program operations - Policies and procedures that management has implemented
                  to provide reasonable assurance that a program meets program objectives.

                  Compliance with laws and regulations - Policies and procedures that
                  management has implemented to provide reasonable assurance that program
                  implementation is in accordance with laws, regulations, and provisions of
                  contracts or grant agreements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 14
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                Universal did not follow HUD requirements when originating and
                underwriting FHA loans (see finding 1).

                Universal did not fully comply with HUD requirements when implementing
                its quality control program (see finding 2).




                                              15
                                    APPENDIXES

Appendix A

     SCHEDULE OF FUNDS TO BE PUT TO BETTER USE


                        Recommendation              Funds to be put
                               number                to better use 1/

                               1A                    $284,776




1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified.

     Implementation of our recommendation to require Universal to indemnify HUD for the
     two ineligible loans will reduce the risk of loss to the FHA insurance fund. The amount
     above reflects HUD’s estimated loss of 66 percent of the loans’ unpaid principal balance
     of $431,479 as of February 29, 2012.




                                            16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         17
Comment 1




            18
19
Comment 2




Comment 3




            20
Comment 4




            21
Comment 5




            22
Comment 6




            23
Comment 7




Comment 8



Comment 9




Comment 10




             24
Comment 11




             25
Comment 12




Comment 13




             26
                            OIG Evaluation of Auditee Comments

Comment 1: Universal stated that due to its rate of delinquency, it has taken significant steps to
           address its internal policies and underwriting quality over the past year. As a
           result, Universal (1) hired more underwriters, (2) expanded its training program,
           and (3) created a Risk Management Department.

               We acknowledge Universal's efforts in strengthening its controls over the
               underwriting process.

Comment 2: Universal acknowledged its shortcoming in its follow-up process to ensure that
           every effort was made to obtain the required re-verifications during the audit
           period. The lender indicated that since the audit period, it has made several
           improvements in the area of quality control. The improvements include
           reviewing all 2011 random QC reviews and attempting to obtain missing re-
           verifications, and hiring a quality control staff who concentrates solely on the re-
           verification process.

               We recognize Universal's efforts in strengthening its controls over the quality
               control process, and to ensure the effectiveness of its process, we recommended
               that HUD review the lender's operations within nine months.

Comment 3: As recommended in our report, the lender reported the deficiency associated with
           FHA case number 095-2007408 to HUD via neighborhood watch.

               The lender has taken corrective action to address recommendation 2B of our
               report.

Comment 4: Universal acknowledged that the file did not contain the withdrawal of the gift
           funds from the donor's account. However, it believed that the file had sufficient
           documentation to determine that the donor provided the gift funds because the gift
           funds was recognized on the HUD-1, the bank statement showed sufficient funds
           for the gift, and the file contained a copy of the cashier's check.

               Although the HUD-1 indicates a gift of $4,900; it is not a withdrawal document
               that shows the funds came from the gift donor. The file did not contain the
               donor's bank statement; it contained a summary report that only indicated the
               donor had an available balance of $5,189. Although the donor’s summary report
               indicated that the donor may have had sufficient funds, it did not show that the
               funds were withdrawn from the donor's account. When the gift funds are
               provided at closing and are in the form of an official check, HUD Handbook
               4155.1 5.B.5.b requires that the lender obtain the donor's withdrawal document or
               cancelled check for the amount of the gift, showing that the funds came from the
               donor's personal account. As stated by the lender, it did not know the reason the
               file did not contain adequate documentation on the withdrawal of the gift funds.




                                               27
              Therefore, Universal did not support that the gift funds came from an acceptable
              source.

Comment 5: Universal disagreed that the underwriter would have a reason to suspect that the
           borrower had any recent foreclosure activity. The loan application did not state
           that the borrower had a previous foreclosure. In addition, the credit report did not
           report any foreclosures, comments or other derogatory mortgage payment history,
           aside from one mortgage loan that had two 30-day delinquencies, the most recent
           in 2005. However, the credit report showed five previous mortgage loans with
           good payment histories, the most recent having been paid off in February 2007.
           This explained the mortgage interest deduction on the borrower's 2007 income tax
           return.

              The loan application did not correspond with documentation in the loan file that
              indicated the borrower’s recent foreclosure. For example, the borrower claimed a
              mortgage interest deduction in 2007 although the loan application signed in 2009
              indicated that the borrower had (1) been renting the FHA property for 15 years
              and (2) no ownership interest in a property in the last three years. The
              underwriter should have questioned these inconsistencies; and thus would have
              discovered the borrower’s recent foreclosure.

              Based on the credit report, the five previous mortgages were opened between
              1997- 2004. Having five mortgages in a seven year period does not denote a good
              pattern of stability although the borrower may have been paying timely. The
              credit report indicated that the most recent mortgage credit line was reported in
              February 2007, not that it was paid off.

              According to County records, the borrower purchased the FHA property in 2001.
              The borrower refinanced this property at least annually from the time of purchase
              until it was foreclosed in July 2007, which suggests financial instability. In
              addition, the credit report did not show (1) that the borrower had a property until
              July 2007 or (2) the late payments that contributed to the foreclosure. The
              borrower indicated having hired a company that would help rebuild the
              borrower’s credit. Therefore, the credit report may not have been complete to
              evaluate the borrower’s credit worthiness.

              The borrower’s file had sufficient indicators that alluded to the borrower’s
              foreclosure and other information that the underwriter should have considered
              when determining the borrower’s ability and capacity to repay the mortgage debt.
              Therefore, this loan was not underwritten in accordance with HUD requirements.

Comment 6: The lender agreed that the underwriter should have asked for further clarification
           regarding the student loan with a balance of $191,432. The lender explained that
           the credit report supplement reflected this loan as closed and having a zero
           balance. It also showed two new student loans opened having balances of




                                               28
              $98,271 and $7,194 respectively; since these amounts did not match the reported
              balance of the original student loan, the lender agreed with our conclusion.

Comment 7: The lender agreed that it should have obtained additional information to support
           the earnest money deposit. Although the file contained the donor’s withdrawal of
           $4,000, it did not agree with the $3,000 earnest deposit. The lender explained that
           sufficient verification of assets has been the subject of its trainings, emails and
           underwriting discussions and will continue to emphasize the importance of
           obtaining sufficient documentation.

              We encourage the lender to continue strengthening its controls in the area of
              verification of assets.

Comment 8: According to Universal, the seller agreed to waive a standard builder fee for the
           purchase of the property. Therefore, the lender believes that this fee was not tied
           to the financing of the property, hence it was not considered in the six percent
           contribution limit.

              There was no documentation in the file that indicated the seller waived the
              standard builder fee for this purchase. Because the builder's fee is a standard fee
              charged for the purchase of the property it is part of the sale of the property and
              included in the 6 percent seller contribution. HUD also stated that the builder’s
              fee credit is included since the 6 percent seller’s contribution is all inclusive and
              includes all costs paid by the seller. Therefore, the seller credit for the builder’s
              fee as reflected on the HUD-1 is included in the 6 percent seller contribution. As
              a result, the lender exceeded the 6 percent threshold.

Comment 9: The lender explained that the borrower’s closing costs were paid by the seller
           therefore; the seller paid the $73 tax service fee.

              The tax service fee was included in the loan origination fees charged to the
              borrower. HUD Handbook 4155.1, paragraph 5.A.2.a, states that borrowers may
              not pay a tax service fee. Therefore, the tax service fee should not have been
              included as part of the borrower’s loan origination costs charged to the borrower.
              Since this fee was not the responsibility of the borrower, the lender needs to
              refund the tax service fee.

Comment 10: The lender indicated that it provided HUD with an executed indemnification letter
            in response to the lender's self-reported deficiencies.

              The lender has taken corrective action to address the deficiencies associated with
              this loan. HUD required indemnification of FHA case number 095-172113 based
              on deficiencies reported by the lender that coincide with the deficiencies we
              identified during our audit. As a result, we will reduce the amount of questioned
              costs to account for the executed indemnification agreement.




                                                29
Comment 11: The lender indicated that although the cosigner's income tax return reflected a
            mortgage interest deduction, the tax returns had been filed with the cosigner's non
            purchasing spouse. Furthermore, the credit report did not report a mortgage
            liability. Therefore, the lender believed that the liability may have been the
            cosigner's spouse and since Florida is not a community property state, the
            cosigner's spouse’s debt should not have been included.

              Although the cosigner’s credit report did not indicate the cosigner had a mortgage
              liability, the file included a letter from the cosigner explaining that he planned to
              refinance his property, but did not go through with it. Since the file contained
              indicators of the cosigner’s potential liability, the lender should have clarified
              whether the cosigner had a mortgage liability. HUD Handbook 4155.1.A.4.c
              requires the lender to ask sufficient questions to elicit a complete picture of the
              borrower’s financial position. Therefore, the lender did not underwrite this loan
              in accordance with HUD requirements.

Comment 12: Universal agreed that the bank printout used to support the donor's gift did not
            identify the donor's name. The lender indicated that the donor's documentation
            was obtained in an abundance of caution. It was Universal's understanding that
            since the borrower had sufficient funds to close according to the verification of
            deposit; it did not need to fully document the transfer of gift funds to the
            borrower's accounts.

              The borrower's verification of deposit showed that the borrower had sufficient
              funds to close; however, the lender was still responsible to verify that the gift
              funds were withdrawn from the donor's account to ensure that it came from an
              acceptable source. According to HUD Handbook 4155.1 5.B.4.c and 4155.1
              5.B.4.e, the lender has the responsibility to ensure that funds given by the gift
              donor are not provided by a person or entity with an interest in the sale of the
              property, such as the seller or real estate agent. The transaction detail report used
              to support the gift did not state the account holder’s name. HUD Handbook
              4155.1 1.B.1.i, requires that asset information obtained from an internet website
              for depository accounts must provide the account’s holder’s name, number,
              transaction history, and balance.

              Although the lender indicated that documentation was obtained in an abundance
              of caution, not completing the verification diminishes its preventive measures.
              Therefore, the lender should ensure that the information obtained is complete and
              adequately documented.

Comment 13: According to the lender, the seller paid all of the borrower's closing costs, which
            included the tax service fee of $85.

              The loan file did not support that the seller paid all of the borrower’s closing
              costs. The HUD-1 shows the tax service fee was charged to the borrower. HUD



                                               30
Handbook 4155.1, paragraph 5.A.2.a, states that borrowers may not pay a tax
service fee. Therefore, the tax service fee should not have been included as part
of the closing costs charged to the borrower. Since this fee was not the
responsibility of the borrower, the lender needs to refund the tax service fee.




                                31
Appendix C

    SCHEDULE OF INDEMNIFICATION AND REPAYMENT



                            Original         Unpaid
                            mortgage        mortgage Indemnification             Status of loan as of
 No. FHA case no.            amount         balance        amount (a)            February 29, 2012
  1    095-1727113          $240,236        $239,283        $157,927                  Delinquent
  2    095-1003547          $ 226,816       $225,309        $148,704             Special forbearance
  3    095-1873522          $207,209        $206,170        $136,072                  Delinquent
         Sub total          $674,261        $670,762        $442,703
       095-1727113         ($240,236)      ($239,283)      ($157,927)          HUD indemnified loan
           Total            $434,025        $431,479        $284,776
    a. On May 10, 2012, the lender provided the indemnification agreement it executed with HUD
        pertaining to FHA case number 095-1727113. As a result, we reduced the indemnification
        amount for this loan and classified $284,776 as funds to be put to better use. This is 66 percent
        of the $431,479 in unpaid principal balances for the two loans as of February 29, 2012. The 66
        percent is the estimated percentage of loss HUD would incur when the FHA property is
        foreclosed upon and resold as supported by the HUD Single Family Acquired Asset
        Management System’s case management profit and loss by acquisition as of December 2011.




                                                  32
Appendix D

                                        LOAN DETAILS FOR THE
                                       THREE PURCHASE LOANS


FHA case #: 095-1003547                                     Mortgage amount: $226,816

Date of loan closing: 12/17/2009                            Unpaid principal balance: $225,309

Loan purpose: Purchase - existing                           Default status: Special forbearance


Asset Deficiency

The lender did not adequately document the transfer of gift funds. HUD Handbook 4155.1,
paragraph 5.B.5.b, requires that if the gift funds are provided at closing and are in the form of an
official check, the lender must have the donor provide a withdrawal document or cancelled check
for the amount of the gift showing that the funds came from the donor’s personal account. The
borrower received $4,900 in gift funds. According to the gift letter, the funds would be provided
at closing. The lender’s file included a copy of the donor’s account summary report and the
official check to the closing company. However, none of the documents showed that the
withdrawal came from the donor’s account. To ensure that the borrower did not receive funds
from an unacceptable source, the lender should have obtained documentation showing the money
coming from the donor’s account.

Credit Deficiency

The lender approved an ineligible loan by not considering a final judgment of foreclosure that
occurred less than 3 years before the loan closing. HUD Handbook 4155.1, paragraph 4.C.2.f,
states that HUD does not insure borrowers that had their principal residence foreclosed upon in
the previous 3 years. Based on the borrower’s 2007 tax return, the borrower claimed a mortgage
interest deduction for a property. Public records showed that on July 23, 2007, the borrower had
a property that was issued a final judgment of foreclosure. According to the borrower, due to
financial challenges, the borrower was unable to make the mortgage payments on the borrower’s
principal residence, which led to the final judgment of foreclosure. To avoid the completion of
the foreclosure process, the borrower sold the property to an investor within the 30-day
redemption period.4 The borrower remained on the property and leased it from the investor. In
December 2009, the borrower repurchased this property within 3 years of the foreclosure with an


4
 The final judgment of foreclosure stated that the owner of the property had approximately 30 days in which to pay the amount owed on the
property and other fees.




                                                                     33
FHA loan. Therefore, the borrower was ineligible to receive an FHA-insured loan due to the
previous foreclosure.

The lender was unaware of and did not consider this foreclosure because it was not reflected in
the credit report. Mortgagee Letter 2004-47, FHA TOTAL Mortgage Scorecard User Guide,
explains that in the event that derogatory or delinquent credit items are revealed during the
processing that are not reflected in the credit report, the lender must downgrade to a “refer” and
manually underwrite the loan. Derogatory credit items include foreclosure, judgments, and so
forth. If it is a foreclosure, the lender should follow HUD Handbook 4155.1, paragraph 4.C.2.f,
Previous Mortgage Foreclosure.

When we informed the lender that the borrower was ineligible to receive an FHA loan, the lender
disagreed because it believed that the property was not foreclosed upon since according to public
records, the property was sold within the 30-day redemption period. Although the property was
sold within the 30-day redemption period, the borrower’s inability to make payments contributed
to the foreclosure, and the lender should have questioned the mortgage interest deduction and
considered the borrower’s ability to make the mortgage payments.

HUD indicated that the lender, having firsthand information, should have discovered and
analyzed the information and followed HUD Handbook 4155.1, paragraph 4.C.2.f, Previous
Mortgage Foreclosure.




                                                34
FHA case #: 095-1873522                   Mortgage amount: $207,209

Date of loan closing: 10/19/2010          Unpaid principal balance: $206,170

Loan purpose: Purchase - existing         Default status: Delinquent


Credit Deficiency

The lender did not consider or clarify in its credit analysis a mortgage interest deduction in the
cosigner’s tax returns. HUD Handbook 4155.1 1.A 4.c requires the lender to ask sufficient
questions to elicit a complete picture of the borrower’s financial situation, and all information
must be verified and documented. Based on the final loan application, the cosigner lived rent
free. However, the cosigner claimed a mortgage interest deduction on his tax returns, which
suggested that the cosigner had a mortgage loan that the lender should have considered when
approving the loan. In addition, the loan file contained a letter indicating that the cosigner was
going to refinance his property but did not go through with it. According to property records, the
cosigner and his wife owned another property. Obtaining an explanation was important because
it may have impacted the approval of the loan.

The lender explained that this liability was not included since the cosigners’ credit report did not
reflect an outstanding mortgage. However, the credit report did not include the cosigner’s
spouse. As a result, the credit report may not have reflected all of the cosigner’s financial
responsibilities that he may have had with his spouse. The lender should have inquired further
about this mortgage deduction to obtain a complete picture of the cosigner’s financial situation.
According to Mortgagee Letter 2004-47, FHA TOTAL Mortgage Scorecard User Guide, if a
mortgage debt does not appear on the credit report, the lender should obtain the most recent 12-
month history and include the payment in the qualifying ratios.

Asset Deficiency

Gift fund: The lender did not properly document the gift provided to the borrower. The loan file
included a gift letter indicating a gift of $500 and a transaction detail report that reflected a
posting of $507. However, the transaction detail report did not state the account holder’s name.
Therefore, we were unable to confirm the withdrawal of funds from the donor’s account. The
lender stated that since funds were given before the initial loan application and submission to the
automated underwriting system, documentation of the gift was not required. However, HUD
Handbook 4155.1, paragraph 5.B.4.d, states that regardless of when the gift funds are made
available to a borrower, the lender must be able to determine that the gift funds were not
provided by an unacceptable source and were the donor’s own funds.

Unallowable fee: The lender charged the borrower an unallowable fee of $85. HUD Handbook
4155.1, paragraph 5.A.2.a, states that borrowers may not pay a tax service fee. The lender said
that the seller-paid closing costs included the tax service fee. However, the tax service fee was
not included in the seller-paid closing costs; it was paid by the borrower.




                                                 35
FHA case #: 095-1727113                   Mortgage amount: $240,236

Date of loan closing: 8/31/2010           Unpaid principal balance: $239,283

Loan purpose: Purchase - existing         Default status: Delinquent


Credit Deficiency

The lender did not ensure that all liabilities were included in its analysis. HUD Handbook
4155.1, paragraph 4.C.2.c, requires that a borrower provide a satisfactory explanation for any
significant debt that is shown on the credit report but not listed on the loan application. The
borrowers’ initial loan application and credit report included a student loan with a balance of
$191,432, or a payment of $980 per month. However, the final loan application did not include
this student loan. The lender indicated that this student loan was not considered since a later
credit report reflected that the loan was closed. Although the report stated that the loan was
closed, it indicated that the account had been consolidated with a new account. Given that the
amount was significant, the lender should have obtained further clarification regarding this
account.

Asset Deficiency

Earnest money deposit: The lender did not determine the source of funds for an earnest money
deposit. HUD Handbook 4155.1, paragraph 5.B.2.a, states that the lender must verify with
documentation the deposit amount and source of funds if the amount of the earnest deposit
appears excessive based on the borrower’s history of accumulating savings. The HUD-1
settlement statement showed an earnest money deposit of $3,000, which the coborrower
provided. Based on the bank slip, on May 13, 2010, the coborrower made a cash deposit of
$3,000 to the coborrower’s bank account, which had a beginning balance of $114, and on the
same day, the coborrower withdrew $3,000 for the earnest money deposit. According to the
coborrower’s bank statements from January 1 through April 30, 2010, the average balance in the
account was approximately $1,049. However, the lender did not determine the source of funds
for the earnest money deposit, which appeared excessive based on the coborrower’s bank
statements. In addition, the borrower’s bank statements for the period April 13 through June 10,
2010, did not show that the funds came from the borrower. As a result, the lender should have
clarified the source of these funds to ensure that they came from an acceptable source.

Seller contribution exceeding 6 percent threshold: Based on the final HUD-1 settlement
statement, the seller credits totaled $15,923, which exceeded the maximum allowable
contribution of $14,610. According to HUD Handbook 4155.1, paragraph 2.A.3.b, the third
party may contribute up to 6 percent of the property’s sales price toward the buyer’s closing
costs, prepaid expenses, discount points, and other financing concessions. The lender explained
that the builder’s fee credit of $3,630 was not a part of the seller’s contribution, as the fee was
not tied to the financing and was paid to the seller directly. However, HUD indicated that the
builder’s fee credit would be included since the 6 percent seller’s contribution is all inclusive.
Therefore, seller credit exceeded the maximum allowable by $1,313.



                                                36
Unallowable fee: The lender charged the borrower an unallowable fee. HUD Handbook 4155.1,
paragraph 5.A.2.a, states that borrowers may not pay a tax service fee. The lender said that the
tax service fee was paid by the seller. However, the settlement statement indicated that the $73
tax service fee was charged to the borrower.

Deficiencies That Were Self-Reported by the Lender for FHA Case #095-1727113

The following are deficiencies that we found; however, the lender had previously self-reported
these deficiencies to HUD and taken preventive measures to ensure that these deficiencies would
not recur.

Income deficiency: The lender obtained insufficient documentation to support the coborrower’s
employment information. HUD Handbook 4155.1, paragraph 4.D.2.d, states that part-time
employment can be used to qualify the borrower if the lender documents that the borrower has
held the part-time job uninterrupted for the past 2 years and documents the likelihood of the
employment to continue. The lender obtained a letter from the employer that accounted for only
1.8 months of employment and did not indicate the likelihood that employment would continue.
In addition, the coborrower’s pay stub for the full-time employment included a required
deduction of $510 biweekly, which was not addressed in the file.

The lender took corrective actions by counseling the staff that worked on the file and reminded
its underwriters to carefully review the pay stubs.

Credit deficiency: The lender did not consider or clarify in its credit analysis a mortgage interest
deduction in the coborrower’s tax return. HUD Handbook 4155.1, paragraph 1.A.4.c, requires
the lender to ask sufficient questions of the borrower to get a complete picture of the borrower’s
financial position.

The coborrower’s 2009 tax return showed that a mortgage interest deduction was claimed. The
lender did not clarify whether the coborrower had an interest in a property or was making
mortgage payments. The lender should have inquired about this mortgage because it may have
had an effect on the qualifying ratios.

The lender took corrective actions by counseling the staff that worked on the file and reminded
its underwriters to carefully review the tax returns.

Asset deficiency: The lender did not properly document a gift provided to the borrower. HUD
Handbook 4155.1, paragraph 5.B.5.b, requires that the lender document borrower gift funds
through a gift letter and verify the transfer of funds. Specifically, if the gift funds are in the
borrower’s account, the lender must obtain a copy of the withdrawal document showing that the
withdrawal is from the donor’s account and the borrower’s deposit slip and bank statement
showing the deposit. Based on the documents in the file, there were discrepancies regarding the
amount of gift funds provided to the borrower. The final loan application, FHA loan
underwriting and transmittal summary, and FHA Loan Prospector showed a gift amount of
$4,000, while the initial loan application, HUD-1 settlement statement, and gift letter showed a
gift amount of $3,000. In addition, the file included the gift letter that indicated a gift of $3,000.



                                                  37
However, the donor’s wire transfer indicated a wire transfer of $4,000 and showed the originator
and beneficiary as the donor.

The lender took corrective actions by counseling the staff that worked on the file and reminded
its underwriters to properly document gift funds. In addition, it added the policy for proper
documentation of gift funds to its loan program matrix.




                                               38
